                                                    NATIONAL SCIENCE FOLTNDATION
                                                     OFFICE OF INSPECTOR GENERAL
                                                       OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

11   Case Number: I08050032
                                                                                  11          Page 1 of 1



           This investigation was initiated based on a proactive review of NSF awardees that used funds
           after the award expiration date. Upon reviewing general ledgers, we detected that an institution'
           showed several awards2 with expenses after the expiration date. Subsequently, we received
           documentation from the institution that showed the expenses were appropriate and used prior to
           the award expiration. In light of our findings, no further action is warranted and this case is
           closed.




I'
 NSF 01G Form 2 (1 1/02)
